No:
IN THE
SUPREME COURT OF THE UNITED STATES

BOBBY MARTIN,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner, Bobby Martin, pursuant to SUP CT. R. 39.1, respectfully moves for
leave to file the accompanying petition for writ of certiorari in the Supreme Court of
the United States without payment of costs and to proceed in forma pauperis.
Petitioner was previously found financially unable to obtain counsel and the
Federal Public Defender of the Southern District of Florida was appointed to
represent Petitioner pursuant to 18 U.S.C. ' 3006A. Therefore, in reliance upon RULE
39.1 and ' 3006A(d)(6), Petitioner has not attached the affidavit which would
otherwise be required by 28 U.S.C. ' 1746.
MICHAEL CARUSO
Federal Public Defender
Miami, Florida
September 20, 2021

By:

s/Tracy Dreispul
Tracy Dreispul
Assistant Federal Public Defender
Deputy Chief, Appellate Division
150 West Flagler Street, Suite 1500
Miami, Florida 33130-1555
(305) 536-6900

